NO. 20-843
SUPREME COURT OF THE UNITED STATES
CERTIFICATE OF COMPLIANCE
NEW YORK STATE RIFLE & PISTOL ASSOCIATION,
INC., ROBERT NASH and BRANDON KOCH,
Petitioners,
V.

KEITH M. CORLETT, in His Official Capacity as
Superintendent of New York State Police and RICHARD J.
MCNALLY, JR., in His Official Capacity as Justice of the New
York Supreme Court, Third Judicial District, and Licensing
Officer for Rensselaer County,
Respondents.

As Required by Supreme Court Rule 33. l(g)(h), I certify
that the BRIEF OF THE BLACK ATTORNEYS OF LEGAL
AID,
THE
BRONX
DEFENDERS,
BROOKLYN
DEFENDER SERVICES, ET AL. AS AMICI CURIAE IN
SUPPORT OF PETITIONERS contains 7,433 words,
excluding the parts of the brief that are exempted by
Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Dated: July 20, 2021

Sworn to on this 20 th day

ofJt;l~w__
ERIC R. LARKE

lotary Public, ~:~~~if6ew York
No. Ol
county
Qualified in We~tchesterh 5 2023
. ·on Expires Marc
'
Jmm1ss1

